                          OFFICE OF INSPECTOR GENERAL

                          MEMORANDUM




DATE:          March 24, 2004

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of the E-rate Program at Immaculate Conception School


The Office of Inspector General (OIG) has completed an audit at Immaculate Conception
School (ICS), a beneficiary of the Universal Service Fund (USF). A copy of our audit
report no. 02-AUD-02-04-20, entitled “Report on Audit of the E-rate Program at
Immaculate Conception School” is attached for your review and comment. The objective
of this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify program areas which may need improvement.

We have concluded that ICS was not compliant with the requirements of the program for
funding years 1998 through 2000. The audit resulted in seven (7) specific findings and
$68,846 identified as potential fund recoveries. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover the amount of $68,846. In addition, we recommend that the Wireline
Competition Bureau take steps to ensure that funding requests are adequately reviewed in
accordance with existing program rules and implementing procedures to ensure that
funding requests associated with such systemic noncompliance with program rules and
regulations are not approved. Further, we recommend that the Wireline Competition
Bureau review those program rules and implementing procedures governing the areas of
noncompliance cited in this report to ensure that those program rules and implementing
procedures are adequate to protect the interests of the fund.

We held an exit conference on December 2, 2003 with the beneficiary’s representatives
and requested their comments on the result of this audit. They concurred with the results
of the audit and noted that they had disclosed most of the issues at the outset of our audit.
They also provided a written response to the findings; see Appendix 1 of the report for
their comments.
Report on Audit of the E-rate Program at Immaculate Conception School


Table of Contents


                                                                        Page


EXECUTIVE SUMMARY                                                         1

BACKGROUND INFORMATION                                                    2

AUDIT OBJECTIVES AND SCOPE                                                3


AUDIT FINDINGS AND RECOMMENDATIONS                                        4


APPENDIX 1 – Auditee’s Response
APPENDIX 2 – Management Response
Report on Audit of the E-rate Program at Immaculate Conception School


EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need and
location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and abuse.

The OIG has completed an audit of Immaculate Conception School (ICS). The objective
of this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program. ICS is a
Catholic school located in the south Bronx section of New York City and teaches pre-
kindergarten to 8th grade classes. The period of our audit was from January 1, 1998 to
June 30, 2002, which comprises Funding Years (FY) 1998 through 2001 of the E-rate
program.

ICS received funding commitments of $616,001 for internal connections, Internet access
and telecommunications services during the period of audit FY 1998 through FY 2001, of
which $500,142 or about 83% was committed for internal connections. A total of
$246,969 was disbursed for this period; of this amount $126,895 was paid to Connect 2
for internal connections and Internet access. Although $314,409 was committed for FY
2000 internal connections and Internet access to have been provided by Connect 2, no
funds were disbursed.

Our audit of the use of E-rate funds at ICS disclosed that the beneficiary and the service
provider were not compliant with the requirements of the program for FY 1998 through
2000 (no findings related to FY 2001). The audit resulted in seven (7) specific findings
and in $68,846 identified as potential fund recoveries that include internal connections
paid for and not provided, over billing for Internet access and reimbursement for
ineligible services. We recommend that the Wireline Competition Bureau direct the
Universal Service Administrative Company (USAC) to recover the amount of $68,846.
In addition, we recommend that the Wireline Competition Bureau take steps to ensure
that funding requests are adequately reviewed in accordance with existing program rules
and implementing procedures to ensure that funding requests associated with such
systemic noncompliance with program rules and regulations are not approved. Further,
we recommend that the Wireline Competition Bureau review those program rules and
implementing procedures governing the areas of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect the
interests of the fund.

We held an exit conference on December 2, 2003 with the beneficiary’s representatives
and requested their comments on the result of this audit. They concurred with the results

                                             1
Report on Audit of the E-rate Program at Immaculate Conception School


of the audit and noted that they had disclosed most of the issues at the outset of our audit.
They also provided a written response to the findings; see Appendix 1 of the report for
their comments.

We provided management with a copy of our draft report on February 25, 2004 and
requested they provide comments on their concurrence with the findings of the audit. In
a response dated March 22, 2004, the Wireline Competition Bureau (WCB) indicated that
they concurred with our three audit recommendations. WCB’s response is included in its
entirety in Appendix 2 to the report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC) is
responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

ICS is a Catholic school located in the south Bronx section of New York City and teaches
pre-kindergarten to 8th grade classes. ICS received funding commitments of $616,001 for
internal connections, Internet access and telecommunications services during the period
FY 1998 through 2001, of which $500,142 or about 83% was committed for internal
connections. A total of $246,969 was disbursed for this period; of this amount $126,895
was paid to Connect 2 for internal connections and Internet access. Although $314,409
was committed for FY 2000 internal connections and Internet access to have been
provided by Connect 2, no funds were disbursed.




                                              2
Report on Audit of the E-rate Program at Immaculate Conception School


AUDIT OBJECTIVE AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. The objective of
this audit was to assess the beneficiary’s compliance with the rules and regulations of the
USF program and to identify areas in which to improve the program.

The scope of this audit was designed to test beneficiary compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) which provide that:

•   The beneficiary determines its discount percentage by the percentage of their student
    enrollment that is eligible for a free or reduced price lunch under the national school
    lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted service for
    which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was from January 1, 1998 to June 30, 2002, which comprises
Funding Years (FY) 1998 through 2001 of the E-rate program.

We performed our audit at ICS and inspected the internal connections and supporting
facilities housed at this school. ICS made three requests for change of SPIN (Service
Provider Identification Number) from Connect 2 to Elite Systems, Inc. In these requests
ICS alleged that Connect 2 billed SLD for services and products not provided to ICS as
obligated under contract for FY 1998 and FY 1999. More specifically, ICS alleges
Connect 2 neither delivered nor installed two servers and more than twenty (20) hub
devices in FY 1999, provided ISDN service and billed SLD for a full T-1 service,
performed substandard work, was not responsive to maintenance calls, and did not
completely charge ICS its matching 10% pre-discount E-rate share. Our audit verified
most of these allegations.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited


                                             3
Report on Audit of the E-rate Program at Immaculate Conception School


purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified significant management weaknesses as
discussed in the Audit Results section of this report and in Finding Numbers 2, 3, 4, 5, 6
and 7.


AUDIT FINDINGS AND RECOMMENDATIONS

Our audit of the use of E-rate funds at ICS disclosed that the beneficiary was not
compliant with the requirements of the program for FYs 1998 through 2000. No findings
related to the use of E-rate funds during FY 2001. The service provider, Connect 2, did
not provide the internal connections and Internet access that were paid for and was not
compliant in many respects with the requirements of the program. We found the lack of
controls by ICS, the beneficiary, contributed to the over billing by the service provider.
The following findings resulted in noncompliant and/or inappropriate funding
disbursements:

   1. The beneficiary did not pay the entire non-discounted portion of the costs.
   2. Internal connections equipment purchased with E-rate funds was missing,
      resulting in overpayments of $33,060.
   3. The service provider billed for T-1 internet access but provided less functional
      integrated services digital network (ISDN) service, resulting in overpayments of
      $16,065.
   4. Wiring and installation costs were determined to be unreasonable for FY 1999,
      resulting in $19,440 in inappropriate funding disbursements.
   5. Ineligible telecommunications services were claimed on FCC Form 472 Billed
      Entity Reimbursement Application (BEAR) Forms for FY 2001, resulting in over-
      reimbursements of $281.
   6. There was no documented competitive bidding process.
   7. Support was lacking for the calculation of the E-Rate discount percentage for FYs
      1998 and 1999.

FINDINGS

Finding 1 of 7 - The beneficiary did not pay the entire non-discounted portion of the
costs.

ICS paid only $7,235 of the $14,100 non-discounted portion for goods and services
received in FYs 1998 and 1999, broken down as follows:




                                             4
Report on Audit of the E-rate Program at Immaculate Conception School


                                          Non-discounted         Amount Paid
 E-rate Services and Products                portion               by ICS          Difference
 FY 1998 Internet Access                     $ 616                 $ 616
 FY 1998 Internal Connections                  5,390                  247            $5,143
 FY 1999 Internet Access                       1,848                  126             1,722
 FY 1999 Internal Connections                  6,246                6,246
 Total                                           $14,100           $ 7,235           $6,865

The current principal of the school stated that ICS did not receive donations or had
payments waived by any vendor that provided E-rate services and products during FY
1998 thru FY 2001, except for the fact that Connect 2 did not completely bill all services
in FY 1998 and FY 1999. According to the E-rate coordinator at ICS and dates of
invoices examined, Connect 2 billed the outstanding amount of $5,143 for FY 1999 on
October 27, 2000 after ICS complained to them and USAC about negligent services,
missing equipment and not being billed for its 10% non-discount E-rate portion.
However, ICS did not pay this invoice due to disputes about the goods and services
received.

The former principal of the school stated that for FY 2000 Connect 2 was going to waive
the 10% pre-discount portion of the approved funding requests for internal connection
and internet access “because ICS was good customer.” However, no dollars were
disbursed by USAC in connection with the approved funding requests for internal
connections and Internet access in FY 2000.

In FY 2001, Elite System billed and was paid by ICS $ 16,500 through June 30, 2002. Of
this, $12,800 represents the full 10% matching E-rate share of the pre-discount amount
committed for internal connections, maintenance and Internet access for FY 2001. The
remaining $3,700 is for telephone equipment and ineligible E-rate items.

The FCC, in Universal Service Order CC Docket 96-45 (FCC97-157,) stated that
requiring applicants to pay their share would ensure efficiency and accountability in the
program. Paragraph 493 of the Order states:

    Requiring schools and libraries to pay a share of the cost should encourage them to
    avoid unnecessary and wasteful expenditures because they will be unlikely to
    commit their own funds for purchases they cannot use effectively. A percentage
    discount also encourages schools and libraries to seek the best pre-discount price and
    to make informed, knowledgeable choices among their options, thereby building in
    effective fiscal constraints on the account fund.

ICS’ failure to account and pay for its share of the non-discounted portion of E-rate
services as certified on Form 471 Service Ordered and Certification Form, Block 6, Item
22, is not in compliance with program rules and requirements and would normally lead to
a full recovery of funds disbursed. However, our discussions with WCB have indicated


                                             5
Report on Audit of the E-rate Program at Immaculate Conception School


that factors such as those present at ICS that can mitigate this result. ICS realized that
Connect2 was billing the school and USAC for goods and services not being provided
and both declined to pay for the missing items and advised USAC of the situation. In our
opinion, ICS’s actions present mitigating factors that would preclude a recommendation
for full recovery of funding based on this finding.

Finding 2 of 7 - Internal connections equipment purchased with E-rate funds were
missing, resulting in overpayments of $33,060.

For FYs 1998 and 1999, our on-site inspection of the internal connections equipment and
audit of supporting documentation revealed that some E-rate equipment could not be
found and some of the equipment installed was significantly different from the equipment
listed on the approved Form 471 (Services Ordered and Certification Form), Item 17
attachment quote/contract. SLD approved, committed and disbursed funds to Connect 2
based on the approved Form 471 funding request numbers. The physical inventory at
ICS revealed that twenty-two (22) equipment units, for which SLD disbursed $33,060 of
funding (the pre-discount price of this equipment was $36,733), were missing. The
following table shows the equipment items not found and the associated pre-discount
charge.

Equipment                                                    Units   Pre-Discount Price
File Server Dell PowerEdge 2300 Server w/tape unit, monitor,
CD ROM.                                                            2          $13, 800
Bay Networks 12 Port 10/100 Auto Hub                             23              23,897
Bay Networks Smart Hub, 24 Port 10/100                             1              1,432
3COM 8 Port Hubs                                                  -4            (2,396)
Total                                                            22            $36,733

Note that this table includes four 3COM 8 port hubs that were installed by Connect 2, but
were not on the original inventory listing. We were able to ascertain the value of these
hubs and reduced the cost of the missing equipment because it is possible these hubs
were installed in lieu of other equipment. Additionally, a Cisco router and T-1 Manager
unit believed to have been provided by Connect 2 were found at ICS; however, we were
not able to determine the value of these items or whether they were substituted products.

ICS alleges Connect 2 neither delivered nor installed two servers and more than 20 hubs
in FY 1999. The ICS E-rate coordinator stated that, because of Connect 2’s lack of
response and resolution to network service problems, ICS contracted with “Network
Outsource.com”, a consultant that performed a complete technology inventory of the
hardware and a test of ICS’ LAN network and access to the Internet. This inventory list
(dated November 2000) shows hubs, switches, servers and personal computers (PCs), by
make, and type number of ports; however, the two servers and the twenty-three (23) plus
hub equipment items in question were not listed.



                                            6
Report on Audit of the E-rate Program at Immaculate Conception School


On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider has to provide the products and services and to
bill the school or library for the non-discounted portion prior to submitting a FCC Form
474 to USAC/SLD.

In FY 1998 Connect 2 Internet Networks, Inc. (Connect 2) substituted the total number of
hub units contained in the original contract with a lesser number of more expensive hubs
with supposedly more capabilities. For example, twenty-three (23) units 12-port hubs
priced at $599 each were substituted with eleven (11) 12-port smart hubs priced at $1,039
each. However, the total contract amount for the funding request remained relatively
unchanged (a revised contract showed a difference of $244 in total price). Because the
amounts invoiced by Connect 2 on the FCC Form 474 (Service Provider Invoice Form)
were submitted as line items in the aggregate by funding request numbers (FRNs)
without any breakdowns by unit/price, SLD had no knowledge of any product
substitutions and relied on the original service/equipment list attached to Item 17 of the
FCC Form 471(Services Ordered and Certification Form). Consequently, SLD approved
the disbursement to the extent the E-rate funds requested did not exceed the approved
committed FRN amounts. SLD has no record of these substitutions, and therefore, issued
no letters authorizing these substitutions. However, we were unable to determine if the
substituted equipment resulted in a less functional system.

For FY 2001, ICS changed their service provider for internal connections and Internet
access and monitored the eligible and ineligible products, paid for the ineligible services
and products and paid its matching 10% share of E-rate services. There were minor
substitutions that were approved by SLD. In addition, asset inventory records and proof
of receipt E-rate services and products, etc., were maintained in accordance with SLD
requirements.

We believe that poor controls at ICS contributed to this finding. For FY 1998 thru FY
2000, ICS lacked the appropriate controls to monitor and ensure that E-rate products and
services were purchased in accordance with E-rate requirements. During these funding
years, the service provider, Connect 2, appears to have been inappropriately involved in
ICS’s application process. This activity included the preparation of some FCC forms,
i.e., FCC Form 471 (Services Ordered and Certification Form) and FCC Form 486
(Receipt of Service Confirmation Form) on behalf of ICS that were filed with SLD. ICS
did not maintain asset records, lacked proof that all E-rate funded internal connections
had been received and installed by the cut-off date, and did not ensure that E-rate funded
services were provided within the allowable contract period/Funding Year. Nonetheless,
ICS certified on FCC Form 486 that services were being provided, thus allowing Connect
2 to file FCC Form 474 (Service Provider Invoice Form) and receive payment from SLD.

We conclude that in FYs 1998 and 1999, the service provider was paid $33,060 for
equipment that was not provided to the beneficiary.

                                             7
Report on Audit of the E-rate Program at Immaculate Conception School



Finding 3 of 7 - The service provider billed for T-1 internet access but provided less
functional ISDN services, resulting in overpayments of $16,065.

Using Verizon Communications Inc.’s (Verizon d/b/a Bell Atlantic) customer billing
records, it was determined that ICS had ISDN service only from March 1999 to May
2000. Connect 2 began to provide T-1 service on June 9, 2000 and disconnected this
service on February 7, 2001. SLD paid Connect 2 a total of $22,176 for FY 1998 and FY
1999.

We have determined that the service provider, Connect 2, was over paid $16,065 for
monthly recurring charges for ISDN service for Internet access billed at rates for a full T-1
service during FY 1998 and FY 1999. The calculation of this amount is too voluminous
for inclusion in this report, but can be made available upon request.

The Development Director and E-rate coordinator at ICS stated that Connect 2 began to
provide T-1 service only after she complained about Internet access speed in September-
November 2000. We were provided copies of several pieces of correspondence from
John Angelides of Connect 2 to ICS, in which Connect 2 acknowledged that they had
been providing ISDN service in lieu of T-1 service.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider has to provide the products and services and to
bill the school or library for the non-discounted portion prior to submitting a FCC Form
474 to USAC/SLD. In addition, the FCC Rules in Sec. 54.507 (b) states that a funding
year for purposes of the schools and libraries cap shall be the period July 1 through June
30; and Section 54.507(e) states that if schools and libraries enter into long term contracts
for eligible services, the Administrator (USAC/SLD) shall only commit funds to cover
the pro-rated portion of such a long term contract scheduled to be delivered during the
funding year for which universal service support is sought. Connect 2 over-billed SLD
for the ISDN services based on rates for T-1 services for Internet access for FY 1998 and
FY 1999 and was not in compliance with program rules and regulations.

Finding 4 of 7 - Wiring and installation costs were determined to be unreasonable for FY
1999, resulting in $19,440 in inappropriate funding disbursements.

Connect 2 charged $43,200 in pre-discount charges for wiring, “integration” and
cabinets/penetration. This amount was billed in FY 1998 as $21,600 broken down into
$13,650 for wiring, $4,000 for integration, $3,950 for cabinets/penetration, and in FY
1999 as $21,600 broken down into $17,600 for wiring and $4,000 for integration. SLD
paid Connect 2 for the committed amount for both funding years. Wiring is labor
intensive and includes drilling, wiring, cabling, and installing conduit covers and patch
panels, while integration is basically testing and completing the network interfaces to the

                                              8
Report on Audit of the E-rate Program at Immaculate Conception School


devices to ensure the network access is functioning properly. Based on discussions held
with ICS staff, Connect 2 wired ICS in the spring to fall of 1999, with most of the work
being completed by the summer of 1999. Program rules allow for the completion of
internal connections installation work by the end of September after the end of the
funding year. We believe the internal connections work performed in the early part of
FY 1999 was minimal, if any at all, given that the two servers and twenty-three hub
equipment units purchased in FY 1999 were never provided and installed as contracted
(see Finding 2). Therefore, we conclude that wiring and integration costs of $19,440 paid
by SLD (based on the pre-discount price of $21,600 and ICS’ 90% E-rate discount) was
not commensurate with the work performed and constitutes an unreasonable waste of
Fund resources.

Finding 5 of 7 - Ineligible telecommunications services were claimed on FCC Form 472
BEAR Forms for FY 2001, resulting in over-reimbursements of $281.

For FY 1999 and FY 2000, ICS filed FCC Form 472 BEAR Form with SLD to obtain
reimbursement for services that ICS paid for telecommunications services provided by
Verizon Communications (Bell Atlantic d/b/a New York Telephone) and AT&T. ICS
paid 100% of the charges and was reimbursed through these service providers for the
90% E-rate discount. Our audit of the supporting records for the telephone charges
disclosed that the Verizon/Bell Atlantic amounts included a telephone line earmarked as
an alarm line. We inquired as to the actual or estimated monthly charge that was charged
for this line. According to the ICS representative, the telephone line for the alarm was
installed during FY 2001 (7/2000-6/2001) and the associated monthly charge of $26 was
inadvertently included in the phone charges filed on Form 472 BEAR.

The USAC/SLD Eligible Services List, dated January 29, 2000, states that
telecommunications services used in connection with burglar/fire alarm equipment are
not eligible for E-rate funding. Therefore, SLD over-reimbursed ICS $281 based on their
90% E-rate discount ($26 per month x 12 months x 90% discount rate). For FY 2001, the
monthly charges for the alarm telephone line were being deducted from the total amount
requested on the Form 472 BEAR form.

Finding 6 of 7 - There was no documented competitive bidding process.

For FYs 1998 through 2000, ICS contracted with Connect 2 for internal connections and
Internet access. Based on interviews of key personnel at ICS and audit of contract
proposals on file, we conclude that ICS had not participated in any real competitive
bidding process as required under Section 54.504(a) and Section 54.511, (a) of the
Commission’s rules. ICS’ selection process did not include any competitive bidding
techniques or cost/benefit analysis with costs being the major selection factor. Former
staff at ICS claimed that several vendors made presentations to them for FY 1998, but no
documentation was provided to substantiate those statements. No competitive bidding
process took place for FY 1999 and FY 2000 as the former principal at ICS decided to
retain Connect 2 under contract, claiming satisfaction with work performed by Connect 2.

                                           9
Report on Audit of the E-rate Program at Immaculate Conception School


In addition, the former principal indicated that it was understood that Connect 2 would
not bill ICS its matching 10% non-discount E-rate share for FY 2000.

Title 47 CFR 54.504, Requests for Service (a) competitive bidding requirement, provides
that all eligible schools, libraries and consortia including those entities shall participate in
a competitive bidding process, pursuant to the requirement established in this subpart, but
this requirement will not preempt state or local competitive bidding requirements.
Section 54.511, Ordering Service, (a) Selecting a provider of eligible services, provides
that in selecting a provider of eligible services, schools, libraries and consortia including
any of those entities shall carefully consider all bids submitted and may consider relevant
factors other than the pre-discounted prices submitted by providers. ICS was not able to
provide documents that would support the soundness of their management of the E-rate
funding or compliance with Title 47 CFR 54.504 and 511.

For FY 2001, ICS entered in contract with Elite Systems, Inc., based on
recommendations from other archdiocesan schools. ICS provided documentation of
proposals received from three other prospective vendors for FY 2001.

Finding 7 of 7 - Support was lacking for the calculation of the E-Rate discount
percentage for FYs 1998 and 1999.

ICS was unable to provide the 1997 applications for free or reduced lunch under the
National School Lunch Program (NSLP) that were used to support the 90% E-rate
discount rate reflected on the FCC Form 471 (Services Ordered and Certification Form)
approved for FYs 1998 and 1999. Student application data supporting the count for free
and reduced lunch reported under the NSLP was maintained on file for a three year
period and was no longer available during the timeframe of our audit. We were provided
with letters from the Archdiocese of New York Department of Education Child Nutrition
and Food Management Services (ANYCNFM), certifying the student enrollment count
and eligibility count. We also interviewed the ANYCNFM staff in order to obtain an
understanding of the procedures used to rate applications which are based on state
provided guidelines for all the funding years. Our audit found that the support for the E-
rate discount calculation in FYs 2000 and 2001 was adequate.

Title 47 CFR 54.505 stipulates that the level of discount on the cost of eligible services
that a school may qualify for is based on the percentage of its students who qualify for
free or reduced price lunches under the national school lunch program (NSLP). As part
of the certification on the FCC Form 471 (Services Ordered and Certification Form) and
other forms, schools and libraries are put on notice that these records may be audited and
commit to retain for five years any and all worksheets and other records used to fill the
application for e-rate funds.




                                              10
Report on Audit of the E-rate Program at Immaculate Conception School


RECOMMENDATIONS

Recommendation 1 of 3 – We recommend that the Wireline Competition Bureau direct
the Universal Service Administrative Company to recover the amount of $68,846
disbursed on behalf of ICS that relate to noncompliance with program regulations and
waste and abuse of the USF.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with existing
program rules and implementing procedures to ensure that funding requests associated
with such systemic noncompliance with program rules and regulations are not approved.

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the areas of noncompliance
cited in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.




                                           11
Report on Audit of the E-rate Program at Immaculate Conception School


          FEDERAL COMMUNICATIONS
                COMMISSION

                OFFICE OF INSPECTOR GENERAL




                Report on Audit of the E-Rate Program at
                    Immaculate Conception School

                         Report No. 02-AUD-02-04-20

                      APPENDIX 1 – Auditee’s Response




                                         12
Immaculate Conception School
Spreading love in the South Bronx since 1854
                                                                        378 East 151st Street
                                                                          Bronx, NY 10455
                                                                            (718) 585-4843


Mr. Thomas Cline
Office of the Inspector General
Federal Communications Commission
445 12th Street, SW
Room 2-C762
Washington, DC
20554

02 December 2003

Dear Mr. Cline,

Thank you for speaking with our principal, Sr. Patrice Owens, and me today, for
clarifying some of the FCC audit findings, and for explaining your role in the audit
process. We found your information very helpful and we thank you for your time.
Please find following our comments on the audit report you issued us yesterday, 01
December 2003, in conjunction with the work done by Vince Amalfitano.

    1. The missing equipment and excessive disbursement of funds outlined in sections
       1-3 of your report are correct. As you know, as soon as we became aware of this
       problem, we reported it to the SLD (04 December 2000), and have always
       complied with SLD/USAC/FCC requests to release information regarding our
       relationship and business with Connect2 Internet Networks.
    2. We acknowledge that, under different administration, ICS incorrectly allowed
       Connect2 to bill for equipment and services we never received. However, we
       would like to reiterate that neither Sr. Patrice nor myself were responsible for this
       action, and that the principal at that time, Sr. Joan Daniel Healy, was not aware
       that Connect2 was using her signature to embezzle funds from the government.
       Though we acknowledge her negligence, she was not a willing or knowledgeable
       accomplice.
    3. Regarding item 4 of your report, we acknowledge fault in incorrectly billing
       during PY4 for (at that time) an ineligible alarm line in the amount of $280.81.
       This was not an intentional breach of program rules as I was not aware that a
       telephone line used for alarm purposes was ineligible. As soon as I became aware
       of this (during PY5 and PY6), we ceased to file for reimbursement for this line.
       Though such a line has recently been determined eligible for discount, we are
       willing to reimburse the SLD for this ineligible charge from PY4.
    4. Regarding item 5 of your report, we acknowledge that it appears ICS did not
       engage in competitive bidding for PYs1-3, all of which occurred before Sr.
       Patrice was at the school and before I was responsible for the E-rate program. I
       inherited no documentation to prove otherwise. Though I was involved in E-rate
       administration for the first time during PY3, the competitive bidding process was
       of course completed well before PY3 actually began. In addition, because we
       were not approved for a SPIN change for PY3 (being aware of their fraudulent
       behavior, we refused to work with Connect2), we never actually used any E-rate
       internal connection funds for that year.
    5. We acknowledge that we did not pay in full our required 10% share during PY1
       and PY2. Though we do have documentation (check registers) to prove that the
       school did make some payments to Connect2, this did not add up to our full 10%
       share. We hasten to add that we were never billed for our full 10% share.
       Connect2 did issue us back invoices during FY3, which a) also did not add up to
       the required 10% and b) were received after we began filing regarding their
       fraudulence. For obvious reasons, we never paid these back invoices.
    6. We acknowledge that records were not adequately maintained by our cafeteria
       crew regarding PY1 and PY2 Federal Free Lunch Program eligibility. Since the
       Archdiocese only requires that such paperwork be kept for three years, the
       cafeteria record keepers were not aware that older documentation needed to be
       kept. It simply didn’t occur to me to make sure they didn’t purge their files. We
       will take measures to correct this oversight in the future.

In sum, we urge the FCC and the Wire Line Competition Bureau to remember that our
administration has changed and since that time we have made enormous efforts to
comply with E-Rate stipulations, as noted in the penultimate paragraph of your report.
We were also among the first entities to report suspected fraudulence on the part of
Connect2 and have always been willing to aid efforts toward project integrity with the
SLD, USAC and FCC. Though over-billing did occur during PY1 and PY2 partially
through the school’s negligence, the fault of fraudulence lies completely in the hands of
Connect2, as the school was not aware of their embezzlement at that time and never
received any of the funds resulting from the over-billing.

We also urge the FCC and WLCB to remember that we are a non-profit organization
designed to love, serve and educate the children of the South Bronx, and we encourage
the FCC and WLCB to do what they can to help us maintain our mission.

Again, thank you for your time.

Sincerely,




Sarah Iversen Ito
ICS Development Director
718.585.4843 x.100
FEDERAL COMMUNICATIONS
      COMMISSION

 OFFICE OF INSPECTOR GENERAL




 Report on Audit of the E-Rate Program at
     Immaculate Conception School

        Report No. 02-AUD-02-04-20

    APPENDIX 2 – Management Response
